Report No. D-2008-114           July 24, 2008




Accountability for Defense Security Service Assets
    With Personally Identifiable Information
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASD(NII)/CIO          Assistant Secretary of Defense (Networks and Information
                         Integration)/DoD Chief Information Officer
CAC                   Common Access Card
DMDC                  Defense Manpower Data Center
DPAS                  Defense Property Accountability System
DRMO                  Defense Reutilization and Marketing Office
DSS                   Defense Security Service
IG                    Inspector General
OMB                   Office of Management and Budget
OPM                   Office of Personnel Management
OSD                   Office of the Secretary of Defense
PII                   Personally Identifiable Information
PSI                   Personnel Security Investigation
US-CERT               U.S. Computer Emergency Readiness Team
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704
                                                                                       July 24, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               DIRECTOR OF ADMINISTRATION AND MANAGEMENT
               DIRECTOR, DEFENSE SECURITY SERVICE

 SUBJECT: Report on Accountability for Defense Security Service Assets With Personally
          Identifiable Infonnation (Report No. D-2008-114)


      We are providing this report for review and comment. We considered management
 comments on a draft ofthis report in preparing the final report.

         DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
 request that the Under Secretary of Defense for Acquisition, Technology, and Logistics provide
 additional comments on Recommendation 2.b. As a result of management comments, we revised
 Recommendation 3. to clarify our intention. We request that the Director of Administration and
 Management provide additional comments on revised Recommendation 3. In addition, based on
 events that occurred after the issuance of the draft report, we removed Recommendations l.f., l.g.,
 l.h., and l.i. and renumbered the other parts of Recommendation 1. accordingly. Management
 should provide comments on the final report by August 25, 2008.

         If possible, please send management comments in electronic fonnat (Adobe Acrobat file
 only) to AUDROS@dodig.mil. Copies of the management comments must contain the actual
 signature ofthe authorizing official. We cannot accept the / Signed / symbol in place of the actual
 signature. If you arrange to send classified comments electronically, they must be sent over the
 SECRET Internet Protocol Router Network (SIPRNET).

        We appreciate the courtesies extended to the staff as well as the excellent assistance
 provided by the DSS staff. Questions should be directed to Ms. Rhonda L. Ragsdale at (703)
 604-9347 (DSN 664-9347) or to Mr. Robert P. Goldberg at (703) 604-9218 (DSN 664-9218). See
 Appendix E for the report distribution. The team members are listed inside the back cover.



                                                                /~~---
                                                                 PauUGranetto
                                                      Principal Assistant Inspector General
                                                                  for Auditing
               Department of Defense Office of Inspector General
Report No. D-2008-114                                                         July 24, 2008

   (Project No. D2007-D000LC-0042.000)

               Accountability for Defense Security Service Assets
                   With Personally Identifiable Information

                                  Executive Summary

Who Should Read This Report and Why? The management at the Defense Security
Service (DSS) and personnel concerned with property accountability should read this report
because it discusses accountability for assets that contain personally identifiable information
(PII) and the requirements for reporting unauthorized disclosure of PII.

Background. DSS provides the Secretary of Defense, DoD Components, and Defense
contractors security support services. In February 2005, DSS transferred responsibility for
the personnel security investigation function to the Office of Personnel Management
(OPM), along with 1,567 DSS employees. The former Director of DSS also transferred
common access cards (CACs), safes, laptops, and auxiliary hard drives to OPM.

Results. DSS management in place during the transfer of the personnel security
investigation function to OPM created a lack of accountability for assets, posing an undue
risk of compromising PII for military, civilian, and contractor employees who were
investigated for personnel security clearances between 1997 and 2005. Through substantial
efforts of its current management, DSS located and confirmed by unique identifier 308 of an
estimated 501 initially unaccounted-for laptops. DSS obtained additional information
demonstrating reasonable assurance that the remaining 193 laptops did not leave control of
Government personnel; therefore, PII contained on the laptops is not at risk. Although DSS
has accounted for the 501 initially unaccounted-for laptops, the initial listing of 501 laptops
was not accurate. Additional laptops may still need to be accounted for.

DSS demonstrated to the Defense Privacy Office that there was no indication the
unaccounted-for laptops had left the control of Government personnel. Based on the
information provided by Defense Security Service, the Defense Privacy Office concluded
that the risk of unauthorized disclosure of PII was not high enough to warrant public
notification. Consequently, DSS did not issue a public notification. Although the Defense
Privacy Office determined no public notification was warranted, a risk of unauthorized
disclosure of PII still exists if laptops still remain unaccounted-for. To prevent recurrence
of a lack of accountability for assets, the Director of the Defense Security Service should
implement controls over property that contains sensitive or classified information or PII,
conduct periodic physical inventories of assets that contain PII, and track assets containing
PII by unique identifier.

Although the current DSS management inherited inaccurate property records, it is
responsible for correcting them. A review of 50 DSS property records showing custody of
electronic devices such as laptops showed only 23 of 50 property records were accurate.
DSS internal controls were not adequate. We identified material weaknesses in property
accountability for DSS assets. Current DSS management is aware of the weaknesses and
has developed an action plan with objectives for FY 2008.

Management Comments and Audit Response. The Director of Acquisition Resources
and Analysis in the Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics (USD[AT&L]) provided comments. She concurred with revising DoD
Instruction 5000.64 to state that the policy applies to mobile computing devices including
but not limited to laptops, mobile information storage devices, and auxiliary hard drives,
regardless of dollar threshold. She partially concurred with requiring that all DoD
Components include unique identifiers on Defense Reutilization and Marketing Office
(DRMO) turn-in documents when disposing of laptops and other electronic devices that
may contain PII. The Director stated guidance in two memoranda not cited in the report
may eliminate the need for the recommendation. The memoranda are:

       •   Deputy Secretary of Defense Directive Memorandum, “Disposition of
           Unclassified DoD Computer Hard Drives,” May 29, 2001; and

       •   Assistant Secretary of Defense for Command, Control and Communications
           Memorandum, “Disposition of Unclassified DoD Computer Hard Drives,” June
           4, 2001.

While we considered the response to the recommendation to update DoD
Instruction 5000.64 responsive, we ask the Director to reconsider her position on the
recommendation regarding unique identifiers on DRMO turn-in documents and provide
comments by August 25, 2008. The suggested guidance does not address accountability for
laptops as they are turned in to the DRMO for disposal.

The DoD Senior Agency Official for Privacy did not concur with our recommendation to
continue working with the Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer and the USD(AT&L) to develop overarching
guidance on the protection of PII on mobile computing devices. The Senior Agency
Official stated that overarching guidance would create confusion. We clarified the
recommendation. Its intent was to create one memorandum that would direct DoD officials
to the proper guidance on protecting PII, accounting for assets that are sensitive, and
reporting a potential breach of PII. We request that the Senior Agency Official for Privacy
comment on the revised recommendation by August 25, 2008.

The DSS Director concurred with six of the recommendations and nonconcurred with four.
The Director determined that the two recommendations related to unaccounted-for
laptops—to continue coordinating with OPM to locate additional laptops, and to plan and
mitigate the risk of unauthorized disclosure of PII—were no longer necessary because DSS
has resolved the last 7 of the 501 initially unaccounted-for laptops. We agree DSS has
demonstrated reasonable assurance that the 501 initially unaccounted-for laptops have been
accounted for. Therefore, we removed the recommendations to continue to work with OPM
to resolve remaining unaccounted-for laptops and implement steps to mitigate risk of
unauthorized disclosure of PII. However, because 501 was not an accurate baseline,
additional laptops may still need to be accounted for. The Director also determined that the
remaining seven unaccounted-for CACs were issued to former DSS employees after they
transferred to OPM and were not the responsibility of DSS. We agree that the remaining
seven unaccounted-for CACs are not the responsibility of DSS and removed the
recommendation on CACs. The Director determined that through due diligence DSS has
mitigated the risk of any possible unaccounted-for safes. We agree and removed the
recommendation on safes. See the Finding section for a discussion of management
comments and the Management Comments section for complete text of the comments.

                                             ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             4

Review of Internal Controls                                            5

Finding
     Accounting for Assets With Personally Identifiable Information    6

Appendixes
     A.   Scope and Methodology                                       26
     B.   Prior Coverage                                              28
     C.   Review of Defense Property Accountability System Records    29
     D.   Management Comments on the Finding and Audit Response       30
     E.   Report Distribution                                         35

Management Comments
     Under Secretary of Defense for Acquisition, Technology,          37
        and Logistics
     Director of Administration and Management                        39
     Defense Security Service                                         41
Background
           Defense Security Service Mission and Functions. The Defense Security Service
           (DSS) provides the Secretary of Defense, the DoD Components, Federal Government
           contractors, and 23 other Federal agencies with a full range of security support services.
           These services include security education, security training, and technical services
           involved in the industrial security clearance process. Prior to February 2005, DSS also
           performed personnel security investigations (PSIs) for these organizations. DSS reports
           to the Under Secretary of Defense for Intelligence. DSS is headquartered in Alexandria,
           Virginia, and has field offices throughout the United States. Within DSS the person
           responsible for property accountability is the Director, who has delegated this
           responsibility to the property book officer.

           Transfer of Functions From DSS to the Office of Personnel Management. In
           FY 2003, the Deputy Secretary of Defense and the Director, Office of Personnel
           Management (OPM) agreed to transfer responsibility for the PSI function from DSS to
           OPM. DoD made this transfer to improve the timeliness of investigations, recognizing
           the success that OPM and the private sector achieved in that area over the last several
           years. The transfer was accomplished through two memoranda. The first memorandum
           of understanding, dated January 24, 2003, expressed the intent of DoD and OPM to
           obtain statutory authority to transfer the PSI function from DoD to OPM. The second
           memorandum of agreement, “Transfer of Certain Elements of the U.S. Department of
           Defense to the U.S. Office of Personnel Management,” October 16, 2004, identified the
           number of personnel to transfer and detailed the costs of the transfer as well as the
           responsibility for the personnel being transferred. Specifically, it stated that
           approximately 1,800 employees who performed work related to the PSI function would
           transfer to OPM. The memorandum also set the goal for OPM to manage the PSI
           function by February 20, 2005. OPM requested DoD to provide support services on a
           reimbursable basis for payroll, facilities, and information technology.

           Assets Transferred. In February 2005, DSS transferred 1,567 1 PSI-related positions
           and $33.8 million to OPM. In addition, DSS transferred common access cards (CACs), 2
           approximately 1,483 laptops, and an undetermined number of safes and auxiliary hard
           drives. As part of the transfer, OPM took over the responsibility for some of the former
           DSS field offices located throughout the United States that performed PSIs.
           Transfer Responsibilities. DoD established a 15-member transition team to coordinate
           the PSI transfer to OPM. The team was charged with ensuring the transfer occurred by
           February 2005 in accordance with the timelines established in the October 16, 2004,
           memorandum of agreement. The Under Secretary of Defense for Intelligence approved
           the transition team members, including the Deputy Under Secretary of Defense for
           Counterintelligence and Security, the Acting DSS Director, the DSS Deputy Director of
           Personnel Security, and the DSS Deputy Director of Industrial Security.


1
    The October 16, 2004, memorandum estimated that 1,800 employees would transfer to OPM; however, in
    February 2005, only 1,567 employees actually transferred to OPM.
2
    The CAC is used as a general identification card as well as for authentication to gain access to DoD computers,
    networks, and certain DoD facilities.



                                                           1
                   According to the Deputy Associate Director of OPM, the transition team and
           OPM management entered into an informal, verbal agreement regarding the transfer of
           assets. Specifically, they agreed that PSI investigators could take DSS laptops and
           CACs with them to OPM to complete ongoing investigations. The intent was that the
           investigators would return the laptops as well as their CACs to DSS when the ongoing
           investigations were completed. In addition, DSS agreed to purchase auxiliary hard
           drives for the transferring investigators to access OPM’s automated system until they
           completely transitioned to PSI cases originating through OPM. The informal, verbal
           agreement also allowed OPM to take possession of an undetermined number of safes.

           Guidance on Security of Personally Identifiable Information. Personally Identifiable
           Information (PII) is defined in Office of Management and Budget (OMB) memorandum
           M-06-19, “Reporting Incidents Involving Personally Identifiable Information and
           Incorporating the Cost for Security in Agency Information Technology Investments,”
           July 12, 2006, as any information that can be used to trace an individual’s identity. Since
           2002, both DoD and OMB have issued policies on accountability for and security of PII.

                   DoD Guidance on Accountability for Property. DoD Instruction 5000.64,
           “Defense Property Accountability,” August 13, 2002, requires DoD Components to keep
           accountable property records and transaction trails for all property that has an acquisition
           cost greater than $5,000 or constitutes sensitive 3 or classified assets. The guidance also
           discusses accountability requirements for assets lent to non-DoD agencies and
           accountability for pilferable items (such as laptops). Specifically, it states that DoD
           Components shall establish records and maintain accountability for property furnished to
           such agencies or contractors.

                   DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
           Equipment and Other Accountable Property,” November 2, 2006, replaced the
           2002 version and allows DoD Components to assess the vulnerability of pilferable
           property and determine how they will account for it. However, the revised instruction,
           like the 2002 version, maintains that accountable property records should be established
           for assets that are sensitive or classified and for assets that are transferred to other
           Government agencies.

                   Defense Property Accountability System. The Under Secretary of Defense for
           Acquisition, Technology, and Logistics (USD[AT&L]) requires that DoD Components
           use a fully operational property accountability system that meets Federal accounting
           standards and can capture and maintain historical data. Further, the Under Secretary of
           Defense (Comptroller)/ Chief Financial Officer designated the Defense Property
           Accountability System (DPAS) as the property system for DoD.

                  Office of Management and Budget Reporting Requirements. OMB
           memorandum, “Reporting Incidents Involving Personally Identifiable Information and
           Incorporating the Cost for Security in Agency Information Technology Investments,”
3
    According to the Director of Administration and Management, Department of Defense Senior Privacy Official
    Memorandum, “Safeguarding Against and Responding to the Breach of Personally Identifiable Information,”
    September 21, 2007, PII is information about an individual that identifies, links, relates, or is unique to or
    describes him or her. Examples of PII include but are not limited to Social Security number; age; military rank;
    civilian grade; marital status; race; salary; home/office phone number; and other demographic, biometric,
    personnel, and medical information. Although PII does not meet the strict definition of sensitive information in
    DoD Instruction 5000.64, the Director of the Defense Privacy Office considers PII sensitive information.



                                                           2
July 12, 2006, requires that agencies report all incidents involving PII to the
U.S.Computer Emergency Readiness Team (US-CERT), an organization within the
Department of Homeland Security, within 1 hour of discovering them. Specifically, the
July 12, 2006, memorandum states:
       This memorandum revises those reporting procedures to now require agencies
       to report all incidents involving personally identifiable information to US-
       CERT within one hour of discovering the incident. You should report all
       incidents involving personally identifiable information in electronic or physical
       form and should not distinguish between suspected and confirmed breaches.
       US-CERT will forward all agency reports to the appropriate Identity Theft
       Task Force point-of-contact also within one hour of notification by an agency.

        OMB requires prompt reporting to US-CERT so US-CERT can assess the
potential impact on national security and quickly notify the proper authorities of
breaches that could affect national security. DoD Directive 5400.11-R, “DoD Privacy
Program,” May 14, 2007, defines a breach as the actual or possible loss of control, or
unauthorized disclosure of or access to personal information such as Social Security
number, a person’s medical history, financial information, or criminal information. The
memorandum further states that an agency should report all breaches regardless of
whether they are suspected or confirmed. However, under US-CERT reporting
requirements, while an incident is under investigation to determine whether information
was compromised, the 1-hour reporting requirement is not applicable. According to a
US-CERT Official, when the investigation is complete, the agency should report the
results of the investigation to US-CERT. Once it receives a report of a breach,
US-CERT forwards the report to the Identity Theft Task Force, headed by the Attorney
General at the Department of Justice within 1 hour of the agency notifying US-CERT.
President Bush established the Identity Theft Task Force to strengthen and improve the
Government’s ability to improve the Nation’s awareness, prevention, detection, and
prosecution of identity theft.

        Office of the Secretary of Defense Guidance. The Director of the Defense
Privacy Office reports to the DoD Director of Administration and Management in the
Office of the Secretary of Defense (OSD). The Defense Privacy Office has
responsibility for developing policy, providing program oversight, and serving as the
DoD focal point for DoD privacy matters. The DoD Director of Administration and
Management, who serves as the Senior Privacy Official for DoD, issued a memorandum,
“Safeguarding Against and Responding to the Breach of Personally Identifiable
Information,” September 21, 2007, which implements the OMB requirements for
reporting breaches to US-CERT. The memorandum states that, in addition to reporting
to US-CERT, DoD Components must report both confirmed and unconfirmed breaches
of PII to the Defense Privacy Office within 48 hours of becoming aware of them. The
Defense Privacy Office requires prompt reporting so it can react quickly to breaches that
have high potential for causing harm, such as identity theft, to affected individuals.

        The memorandum also requires the DoD Component that identifies the incident
to determine the level of risk of harm, such as identity theft or the disclosure of
embarrassing information that could affect one’s reputation. Specifically, when a DoD
Component determines whether notifying the general public is necessary, the
Component should consider the likely harm and the likelihood of risk occurring. When
assessing risk, the DoD Component should consider the following five factors:


                                              3
           •   the nature of the data elements breached,

           •   the number of individuals affected,

           •   the likelihood that the information is accessible and usable,

           •   the likelihood that the breach may lead to harm, and

           •   the ability of the agency to mitigate the risk of harm.

           The memorandum also urges agencies to “bear in mind that notification of a
    breach when there is little or no risk of harm might create unnecessary concern and
    confusion.” The memorandum further states that the DoD Component will document its
    assessment of the level of risk and its rationale for not notifying the public.

Objectives
    The objective of the audit was to determine whether DSS has adequate controls and
    accountability to secure its assets that contain sensitive personal data including CACs,
    safes, laptops, and hard drives. Specifically, we determined whether DSS properly
    secured assets as part of the transition of the PSI function from DSS to OPM. In
    addition, we reviewed the security of assets currently in the possession of DSS. See
    Appendix A for a discussion of the scope and methodology and Appendix B for prior
    audit coverage.




                                             4
Review of Internal Controls
           We identified material internal control weaknesses for DSS property accountability as
           defined by DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
           January 4, 2006. Former DSS management deviated from DoD Instruction 5000.64
           (both 2002 and updated 2006 versions) by not keeping a transaction trail for an
           estimated 501 laptops and an undetermined number of safes and auxiliary hard drives
           during the transfer of the PSI function from DSS to OPM. In addition, DSS deviated
           from DSS internal guidance when it allowed 48 DSS employees to leave DSS without
           collecting, deactivating, and disposing of their CACs. Although DSS has taken steps to
           improve its property accountability system, the audit team’s review of a sample of
           property accounting records of electronic data devices from May to August 2007
           indicated that only 23 of 50 property accounting records sampled were accurate. 4
           Implementing Recommendations 1.a.-1.c. and 1.f. will improve property accountability
           at DSS. DSS identified property accountability as a weakness needing correction in its
           “Memorandum For the Secretary of Defense FY 2007 Annual Statement Required under
           the Federal Managers’ Financial Integrity Act of 1982,” August 20, 2007. To correct
           the inventory control weaknesses, current DSS management has established these
           planned objectives for FY 2008.

                    •   Finalize and implement DSS policy and procedures for all categories of
                        plant, property, and equipment.

                    •   Complete an inventory of DoD property held by OPM and update DPAS.

                    •   Complete an inventory of all items classified as sensitive property, and
                        ensure items are properly accounted for in DPAS in accordance with DSS
                        policy.

                    •   Certify the inventory of sensitive property in DPAS.

                    •   Verify that supporting documentation for reviews and inventories is
                        generated and maintained in accordance with policy.
           We will provide a copy of the report to the DSS office responsible for internal controls.




4
    The inventory reviews performed by the DoD IG audit team were limited to headquarters and field offices located
    in Linthicum, Maryland.



                                                          5
                   Accounting for Assets With Personally
                   Identifiable Information
                   Through substantial efforts by current DSS management, the DoD Inspector
                   General (IG) audit team, and OPM management to locate unaccounted-for assets,
                   as of February 11, 2008, 308 out of an estimated 501 unaccounted-for laptops
                   were recovered and confirmed by unique identifier. DSS obtained additional
                   information demonstrating reasonable assurance that 186 of the remaining 193
                   did not leave control of Government personnel; therefore PII contained on the
                   laptops is not at risk. DSS continued efforts to locate the seven remaining
                   laptops.

                   A review of current DSS DPAS inventory records of information technology
                   devices showed that, of a sample of 50 records reviewed, only 23 were accurate.
                   DSS has recognized it has inaccurate inventory records and has documented
                   corrective actions to be achieved in FY 2008.

                   In addition, as of December 13, 2007, DSS could not fully account for seven
                   CACs and an undetermined number of safes. 5
                   This inability to locate property occurred because DSS management at the time
                   of the transfer of the PSI function from DSS to OPM did not:

                           •   plan for the transfer from DSS to OPM of assets related to the PSI
                               function,

                           •   define property accountability requirements or oversee the contractor
                               hired to collect and return DSS laptops lent to OPM, or

                           •   maintain accurate property accountability records for safes, laptops,
                               and auxiliary hard drives during the transfer of the PSI function to
                               OPM in accordance with DoD Instruction 5000.64.
                   Current DSS management has not fully implemented planned improvements to
                   property accountability.

                   As a result, DSS management in place during the transfer created a lack of
                   accountability for assets, posing an undue risk of compromising PII for military,
                   civilian, and contractor employees who were investigated for personnel security
                   clearances between 1997 and 2005. However, because DSS has demonstrated to
                   the Defense Privacy Office that there is no indication that the unaccounted-for
                   laptops have left Government control and the Defense Privacy Office has
                   concluded that the risk of unauthorized disclosure of PII on unaccounted-for
                   laptops was not high enough to warrant public notification of compromised PII,
                   DSS did not issue a public notification. Although the Defense Privacy Office
                   determined no public notification is warranted, a risk of unauthorized disclosure
                   of PII still exists for the seven remaining unaccounted-for laptops.
5
    In February 2008 DSS determined that OPM issued 7 of the 55 CACs to former DSS employees after they
    transferred to OPM.



                                                       6
Accountable Defense Security Service Property
           The transfer of the PSI function from DSS to OPM included 1,567 people and
           approximately 1,483 laptops. 6 During the transfer, DSS also purchased an
           undetermined number of auxiliary hard drives for transferring DSS investigators. The
           hard drives allowed the investigators to access documentation stored on OPM’s
           automated system for PSI investigations. In addition, DSS allowed 55 investigators to
           retain their CACs after transferring to OPM to facilitate their continued access to DoD
           facilities to complete ongoing investigations. DSS also allowed OPM to keep an
           undetermined number of safes used by DSS investigators to hold sensitive and classified
           information. According to the former Acting DSS Director, the transfer of assets was
           based on verbal agreements between the Special Assistant to the former Acting DSS
           Director and the OPM Director.

           Laptops
           Laptops Loaned to OPM. According to the former Assistant to the former Acting DSS
           Director 7 and the Deputy Associate Director of OPM, the verbal agreement between
           DSS and OPM included the loan of approximately 1,483 DSS laptops (valued at up to
           $2.2 million) 8 to OPM so that former DSS PSI investigators could complete ongoing
           investigations after transferring to OPM. According to the former Acting DSS Director,
           the verbal agreement was that OPM would return the laptops 6 months after the
           transfer. 9 However, OPM did not return all the laptops within 6 months. In fact, DSS
           continued to receive more borrowed laptops a year after the 6-month agreement had
           expired. Regardless of when they were returned, as DSS personnel received the laptops
           from OPM, they did not always update their property accountability records.

           At the time of the transfer, DPAS records indicated that DSS had an inventory of
           approximately 2,826 laptops. According to DSS e-mail correspondence between the
           former Acting Director’s Special Assistant and an official at the OSD Comptroller, DSS
           transferred 1,483 of the 2,826 laptops to OPM and instructed OPM to return them
           6 months after the transfer (the remaining 1,343 were laptops retained for DSS use).

           In December 2006 the Chief of DSS Support Services 10 had his staff perform queries of
           DPAS records and concluded that DSS could not account for 501 of the 2,826 laptops
           listed in DPAS. The audit team reviewed analysis performed by DSS staff of non-DPAS
           inventory records and found that DSS transferred 249 of the 501 unaccounted-for
           laptops to OPM and retained 252 for DSS operations. During the course of the audit,
           the DoD IG audit team, DSS, and OPM personnel located 308 of the 501 unaccounted-
           for laptops confirmed by unique identifier, leaving 193 other than physically accounted
           for. Table 1 displays the DSS laptop inventory prior to the transfer and summarizes the

6
    Although 1,567 DSS employees transferred from DSS to OPM, not all DSS employees took DSS laptops with them.
7
    The Acting Director during the transfer served from 2004 to 2005.
8
    This calculation assumes an average cost of $1,500 per laptop.
9
    The agreement for OPM to return the laptops to DSS was extended at least three times, until April 1, 2006.
10
     The Chief of Support Services is no longer employed at DSS.



                                                           7
 unaccounted-for laptops from the start of the audit in December 2006 through
 February 11, 2008.

                           Table 1. DSS Laptop Inventory


                             Related to                Unrelated to    Total DSS
                               PSI                        PSI           Laptop
                             Transfer                   Transfer       Inventory
                              1,483                      1,343            2,826*


       Unaccounted for                           501


                             Related to       Unrelated to
                               PSI               PSI
                             Transfer          Transfer        Total
                             249                 252            501
       Physically
       accounted for         133                 175            308

       Other than physically
       accounted for         116                  77            193

*The 2,826 laptops are an estimate based on queries of DSS DPAS records of laptops
that DSS used during the transition period. Since DPAS records were not accurate, we
cannot be certain that the 2,826 laptops are not understated or overstated.


 Although 116 of the 193 of the outstanding laptops were related to the transfer of the
 PSI function from DSS to OPM, 77 of the 193 unaccounted-for laptops were not related
 to the transfer of assets to OPM. The lack of accountability for laptops at DSS therefore
 is not solely a result of DSS transferring laptops to OPM, but also a result of DSS
 management not maintaining accurate records of their own laptops.

 During the course of the audit, the DoD IG audit team, DSS, and OPM personnel located
 308 of the 501 unaccounted-for laptops through the following steps.

         •   Between August 2006 and May 2007, DSS sent e-mails to all DSS
             employees requesting that they identify any laptops in their custody by
             unique identifier (serial number or bar code).

         •   Between March and June 2007, DoD IG and DSS staff searched nine DSS
             field offices.




                                          8
                   •    Between May and July 2007, DoD IG and OPM IG staff searched six OPM
                        field offices.

                   •    Between January 2007 and May 2008, DoD IG and DSS staff reviewed
                        Defense Reutilization and Marketing Office (DRMO) and Directorate of
                        Logistics documentation 11 to identify any laptops sent to DRMO offices for
                        disposal or destruction.

                   •    Between December 2006 and July 2007, DoD IG and OPM IG staff
                        conducted interviews with former DSS and OPM property managers as well
                        as former and current DSS and OPM employees listed in DPAS as the last to
                        have custody of the unaccounted-for laptops.

                   •    In August 2007, DSS convened a task force in response to the Deputy
                        Secretary of Defense instruction to DSS to dedicate the resources necessary
                        to locate the remaining unaccounted-for laptops.

           Thanks to the joint efforts, as of February 11, 2008, 308 of the 501 laptops had been
           located and confirmed by a unique identifier, reducing the laptops DSS could not
           physically account for to 193. Table 2 shows the 308 laptops located and confirmed by
           unique identifier.

                            Table 2. Laptops Located as of February 11, 2008

                   Laptops located at DSS headquarters                                       92

                   Laptops located at DSS field offices                                      91

                   Laptops located at OPM field offices                                      49

                   Laptops located at DRMO sites                                             62

                   Laptops located at commercial storage facility                            14

                       Physically accounted-for laptops                                    308
                       Other than physically accounted-for laptops                         186

                       Laptops remaining to be accounted for                                  7

                          Total                                                            501



           Through the efforts of a DSS dedicated task force, DSS obtained information that
           indicates 186 of the 193 laptops did not leave Government control. Therefore, PII on
           those laptops may not be at risk of unauthorized disclosure. Specifically, DSS has
           obtained the following information.
11
      The DRMO documentation reviewed included DD Forms 1348-1A, which DoD requires for turn-in of assets to
     the DRMO.



                                                       9
•   DSS identified transaction trails in DPAS records that indicated 21 of the 193
    laptops were incorrect entries in DPAS. The laptops were actually disposed
    of at the DRMO.

•   DSS located DRMO turn-in documents that did not list unique identifiers
    such as serial numbers or barcodes but identified 65 laptops that DSS had
    disposed of at DRMO locations where DSS field offices had closed.
    According to DPAS records, DSS did not remove any laptops from the
    property books during these time frames, indicating that the 65 laptops are
    part of the 193 unaccounted-for laptops.

•   DSS found DPAS records that showed that 55 of the remaining 193 laptops
    may not have been used for PSIs and therefore may not have PII on them.

•   DSS certified that 3 of the 193 unaccounted-for laptops were replaced under
    warranty, but their records were not updated in DPAS.

•   DSS located 42 hard drives from DSS and OPM field offices and matched
    them with 42 of the 193 unaccounted-for laptops by linking employee names
    contained on the hard drives to the employees that DPAS records showed
    were assigned to the laptops.

•   DSS also identified 4,369 hard drives that DSS and OPM disposed of
    through the National Security Agency. However, because DSS disposed of
    these hard drives and there were no records by unique identifier, DSS cannot
    clearly determine whether any of them were part of the 501 unaccounted-for
    laptops. In addition, DSS located 1,292 hard drives that DSS personnel are
    currently analyzing; these hard drives will bring the total to 5,663. DSS
    plans to dispose of the hard drives after completing the analysis.




                                10
        Table 3 shows the information provided by DSS regarding the remaining unaccounted-
        for laptops.

               Table 3. Summary of Remaining Laptops as of February 11, 2008

         Unaccounted-for laptops                                                                        501

         Located by unique identifier                                                                   308

         Laptops not fully accounted for                                                                193

         Laptops accounted for by other than unique identifier

             Double counted in DPAS records                                                     21

             Turned in to the DRMO without record of unique identifiers                         65

             DPAS records show not used for PSIs                                                55

             Replaced under warranty                                                             3

             Accounted for by hard drive                                                        42

                Subtotal                                                                                186

                 Total unresolved laptops that may contain PII                                             7



        In May 2008 DSS was able to resolve the remaining seven unaccounted-for laptops.
        DSS determined that personnel keying serial numbers into DPAS made a typographical
        error for each of the seven laptops. DSS compared DRMO turn-in documents and
        Directorate of Logistics 12 turn-in documents with the laptop records in DPAS and found
        that serial numbers for the seven laptops did not match the unique identifiers in DPAS
        records but were only one digit off. As a result, laptops located and confirmed by
        unique identifier as of May 2008 totaled 308; 193 were accounted for by other means.
        According to DSS, the information presented demonstrates the previously unaccounted-
        for laptops are not at risk of unauthorized disclosure of PII.

        Accuracy of Current DSS Property Accountability. As part of the audit, the audit
        team tested current DPAS records (including records of laptops and desktops) to
        determine their accuracy as of May 2007. Using the same inventory record system used
        to determine that DSS had 501 unaccounted-for laptops, we reviewed a random sample
        of 50 current DPAS property records and performed a book-to-floor and floor-to-book
        inventory to see if the DPAS records and the items in DSS staff members’ possession
        matched. The audit team found that only 23 of the 50 records (46 percent) were
        accurate. As a result, the total of laptops unaccounted for, which DPAS records showed
        was 501, could be higher or lower because the DPAS records at DSS were not accurate.
12
 Directorate of Logistics is an activity within the Office of the Administrative Assistant to the Secretary of the
 Army responsible for providing logistics support to all DoD activities in the National Capital Region.



                                                         11
            The audit team used the 501 unaccounted-for laptops as a baseline for the laptop search
            because it was the best information available when the audit began. See Appendix C for
            additional explanation of the testing performed at DSS.

            Reporting of Possible Breaches to US-CERT and the Defense Privacy Office. In
            March 2007, the audit team met with an attorney from the office of the DSS General
            Counsel and with the Deputy Director of US-CERT to discuss the unaccounted-for
            laptops and to determine what steps DSS should take to comply with US-CERT
            reporting requirements. DSS contacted US-CERT and the Defense Privacy Office in
            March 2007. US-CERT and the Defense Privacy Office stated that, when DSS and the
            DoD IG audit team exhausted their search for the unaccounted-for laptops, DSS should
            report the incident to US-CERT and the Defense Privacy Office.

            DSS reported the unaccounted-for laptops and mitigating information to the Defense
            Privacy Office on January 10, 2008. 13 According to the Director of the Defense Privacy
            Office, the risk of unauthorized disclosure of PII associated with the unaccounted-for
            laptops was not high enough to warrant a public notification of a breach of PII. The
            Director of the Defense Privacy Office added that, because there is no evidence that any
            of the laptops or hard drives left Government control, notifying the public of a breach
            would cause unnecessary alarm and panic. DSS also met with US-CERT on January 16,
            2008, to report the unaccounted-for laptops and present additional information that DSS
            believes mitigates the risk of unauthorized disclosure of PII.

            According to the DSS Deputy Director, after considering the factors outlined in the
            September 21, 2007, OSD Director of Administration and Management memorandum,
            DSS determined that there was little or no likelihood that a breach of PII had occurred.
            In making that determination, DSS considered there was no evidence any laptops or hard
            drives were stolen or ever outside of Government control. Moreover, through its
            ongoing search efforts, DSS continued to locate unaccounted-for laptops and hard
            drives, and DSS management believed that it ultimately would be able to account for all
            of the remaining laptops and hard drives. Because the risk of harm and the likelihood of
            the risk occurring were low, DSS determined that public notification of a potential
            breach would create unnecessary concern and confusion among those individuals who
            may be affected by the potential breach. Therefore, in accordance with OMB and DoD
            guidance, DSS concluded that public notification was not required.

            Auxiliary Hard Drives
            The DSS transition team agreed with OPM that DSS would purchase and permanently
            transfer an undetermined number of auxiliary hard drives for DSS PSI investigators
            transferring to OPM. The hard drives would afford access to OPM’s Personnel
            Investigations Processing System software. Although no written agreement existed
            regarding the auxiliary hard drives, according to the DSS Chief of Support Services, the
            intent was to allow OPM to keep the hard drives. DSS and OPM personnel were unable
            to determine the number of auxiliary hard drives because, at the time of the transfer,


13
      On May 2, 2008, DSS provided the Defense Privacy Office with an updated briefing and provided the Director
     of Administration and Management an updated memo for a determination regarding public notification (see a
     scanned copy of the May 2, 2008, memorandum in the Management Comments section).



                                                         12
           DSS did not maintain a record of the purchase of the hard drives nor log the assets in
           DPAS.

           As further corroboration that the hard drives were intended to become permanent OPM
           assets, in June 2007, the OPM Deputy Associate Director provided the DoD IG audit
           team a memorandum certifying that:

                   These secondary hard drives were not scheduled for return to DSS, and
                   remained in the possession of OPM. OPM will continue to manage this as part
                   of their equipment inventory, and will dispose of them when appropriate
                   according to agency security standards.

           The OPM certification, however, did not specify the number of auxiliary hard drives that
           DSS purchased and transferred to OPM. According to interviews with the OPM Deputy
           Associate Director and the former Acting Director at DSS, the auxiliary hard drives
           were used only to access the OPM Personnel Investigations Processing System and
           therefore did not contain PII collected at DSS. The hard drives contained PII related
           only to OPM investigations and are under OPM control and responsibility. Although
           DSS purchased the auxiliary hard drives, we have no indication that they were ever used
           to access anything but OPM systems. Therefore, based on the verbal agreement and the
           June 2007 OPM memorandum, OPM has accepted responsibility for the auxiliary hard
           drives and any PII on them. Consequently, DSS is not responsible for the information
           residing on the auxiliary hard drives.

           CACs
           In DoD, the Defense Manpower Data Center (DMDC) is responsible for managing and
           issuing CACs. DMDC issues CACs for use by personnel as both a form of
           identification to enter DoD facilities and a means of electronic authentication to obtain
           access to DoD computer systems. According to the DSS “Common Access Card
           Procedures Within Defense Security Service,” January 2004, when DoD personnel leave
           DoD for a non-DoD agency, they must turn in their CACs. Thus, DSS should have
           collected the CACs from the personnel who transferred to OPM. In addition, according
           to the “Certificate Policy for United States Department of Defense, Version 9.0,”
           February 9, 2005, issued by the Assistant Secretary of Defense (Networks and
           Information Integration)/DoD Chief Information Officer (ASD[NII]/CIO), DoD civilian
           CACs must be electronically deactivated, meaning they can no longer be used to obtain
           access to DoD computer systems when an employee leaves DoD for a non-DoD agency.
           Thus, DSS should have contacted DMDC to deactivate the cards of the personnel who
           transferred to OPM.

           According to the DSS Chief of Security, as part of the transfer, DSS allowed former
           DSS investigators to retain their CACs so they could access DoD facilities to complete
           ongoing security investigations. OPM employees were to return the CACs on March 19,
           2005, 1 month after the transfer. However, 2 years after the transfer, 55 CACs 14 were
           still active. The Chief of Security, began working with DMDC and reconciling the


14
      In February 2008 DSS determined that OPM issued 7 of the 55 CACs to former DSS employees after they
     transferred to OPM.



                                                        13
CACs in July 2006. In February 2007, DMDC electronically deactivated all 55
remaining unauthorized CACs.

DMDC determined that there were 55 former DSS employees with outstanding CACs.
DMDC records showed that, of 1,567 DSS employees that transferred to OPM, 276 had
CACs at the time of the transfer. Of the 276 CAC holders, 221 were authorized to retain
their CACs after their transfer to OPM because they were also either military reservists
or were affiliated with another part of the military. The remaining 55 of the 276 CAC
holders should have turned their CACs in to DSS when they transferred from DSS to
OPM, and DSS should have notified DMDC to electronically deactivate the CACs.

Although all 55 CAC holders should have turned in their CACs at the time of the
transfer, according to OPM and DSS records, 21 of the 55 unauthorized cardholders
ended up gaining employment with other DoD agencies instead of OPM, and therefore
were permitted to keep their CACs. OPM collected and destroyed another 21 of the 55
unauthorized CACs, and 6 of the employees exchanged their DoD CACs for affiliate
(non-DoD) CACs. In February 2008 DSS determined the remaining seven CACs were
issued to former DSS employees after they transferred to OPM and are the responsibility
of OPM to collect.

As of May 2008, OPM management reported it had collected six of the seven CACs and
was continuing efforts to retrieve the remaining unaccounted-for CACs. Table 4 shows
the status of the cards.


                      Table 4. Status of 55 DoD Civilian CACs

                       Status of CACs                                Number of CACs
 DoD rehired individual associated with CAC                                     21
 OPM documented collection or destruction                                       21
 Individual exchanged DoD CAC for affiliate CAC                                  6
    CACs DSS is responsible for                                                 48
 Issued to former DSS employees after they transferred to OPM                    7
    Total                                                                       55


Safes
The DSS Chief of Security explained that the DSS transition team provided OPM a
number of safes as part of the transfer of the PSI function from DSS to OPM. However,
the Chief of Security could not provide the number of safes transferred to OPM because
the transfer was based on a verbal agreement between the transition team and the
Director at OPM.

In July 2007, the OPM Field Support Branch Chief provided the audit team a
certification that OPM had received 23 safes from DSS during the transfer and that none
of the 23 safes contained sensitive or classified information. The certification further
stated that the safes did not contain any DoD sensitive or classified material while in the


                                        14
    possession of OPM. Although OPM has certified it received 23 safes, the fact that DSS
    cannot determine the number of safes transferred means there is a risk that additional
    safes remain outstanding and that sensitive or classified information contained in those
    safes is not under the control of either DSS or OPM. The DSS Chief of Security has
    stated that any unaccounted-for safes are not a security concern because (1) OPM
    certified that none of the safes transferred to OPM contained DSS sensitive or classified
    material and (2) the safes remained in DSS offices taken over by OPM and were never
    shipped to other locations. On the basis of these mitigating factors, we have determined
    no additional action is needed regarding potentially unaccounted-for safes.


Planning and Maintaining Accountability for DSS Assets
    As of February 11, 2008, DSS could not fully account for 193 laptops by unique
    identifier because former DSS management did not:

           •   plan for the transfer of assets from DSS to OPM during the transfer of the
               PSI function;

           •   define property accountability requirements or oversee the contractor hired to
               collect and return DSS laptops lent to OPM; or

           •   maintain accurate property accountability records for safes, laptops, and
               auxiliary hard drives during and after the transfer of the PSI function to OPM
               in accordance with DoD Instruction 5000.64.

    In addition, current DSS management has not fully implemented planned improvements
    to inventory accountability.

    Planning for the Transfer of Assets From DSS to OPM. The former DSS
    management at the time of the transfer did not properly plan for the transfer of assets
    from DSS to OPM. The memorandum of understanding and memorandum of agreement
    only defined the reassignment of DSS personnel to OPM and specified an associated
    budget. The formal agreements did not indicate whether CACs, safes, laptops, and
    auxiliary hard drives would transfer to OPM or whether OPM would transfer any of the
    assets back to DSS.

    Instead, according to the DSS Chief of Support Services, the former Directors of DSS
    and OPM based the transfer of hundreds of CACs, laptops, auxiliary hard drives and
    numerous safes on an informal, verbal agreement and did not document the number of
    assets that would transfer temporarily or permanently to OPM. In addition, according to
    the DSS Chief of Security, DSS management at the time of the transfer left key
    personnel including him out of the decision-making process. In addition, DSS at the
    time of the transfer did not fill the property book officer position when the previous
    property book officer transferred to OPM. By not properly planning and documenting
    the transfer of assets and responsibility for them, the former DSS and OPM Directors
    put the PII of military and civilian employees who were investigated for security
    clearances between 1997 and 2005 at risk. If even one laptop containing PII left the
    control of the Government and fell into the hands of unauthorized users, it could cause
    harm through identity theft or disclosure of PII. Because there was no formal


                                           15
documentation, subsequent and current DSS managers have been unable, despite
considerable efforts, to determine what assets changed hands, what assets were returned
to DSS, or what assets may be outstanding. The fact that the assets were unaccounted
for, coupled with the fact that they contained PII, created the risk of compromised PII.

Defining the Contractor’s Property Accountability Requirements. On
August 10, 2004, DSS entered into a $4.7 million contract with MZM Incorporated
(MZM) to assist DSS in the transfer of the PSI function from DSS to OPM. Because
DSS did not have a contracting officer, DSS used the Defense Information Systems
Agency to award and administer the contract. The DSS Director of Administration and
Management performed contracting officer representative responsibilities, including
writing the statement of work and performing contract oversight. The contract required
MZM to provide assistance in closing DSS field offices that carried out the PSI function,
provide short-term storage of collected DSS assets, and then turn in the assets to the
local DRMO. In addition, the statement of work listed the following requirements.

       •   Maintain the DSS laptop inventory until the final transfer of functions to
           OPM.

       •   Maintain inventory listings as required by the Government.

       •   Recommend disposition of nonserviceable items to the DRMO.

Although the contract tasked MZM to maintain the DSS laptop inventory and maintain
inventory listings as required by the Government, the contract did not assign MZM
responsibility for removing laptops from the DPAS inventory as they were disposed of
at the DRMO, nor did the contract define what was required by the Government.
Instead, the former DSS property book officer compensated for the lack of specific
language in the statement of work by providing MZM access to DPAS and instructing
MZM to remove the laptops from the DPAS inventory as MZM shipped the laptops to
the DRMO for disposal or returned them to the DSS inventory.
In August 2004, MZM subcontracted the collection of laptops to Improsive
Technologies (Improsive) while MZM kept the responsibility for closing field offices.
Specifically, the statement of work listed the following requirements:
       •   Maintenance of DSS laptop inventory, and

       •   Disposition of nonserviceable equipment.

Like the MZM contract, the Improsive subcontract did not contain any language
regarding the removal of laptops from DPAS, nor did the subcontract define the
requirements for maintaining DSS laptop inventory or disposing of nonserviceable
equipment.

Although the subcontract did not specify the removal of laptops from DPAS, again the
former DSS property book officer provided Improsive access to DPAS and told
Improsive to remove laptops from the DPAS inventory as Improsive collected them
from OPM and sent them to the DRMO for disposal from August 13, 2004, to March 9,
2006.



                                       16
According to an Improsive employee involved with the movement of laptops, as MZM
closed field offices, MZM sometimes shipped laptops to the DRMO without recording
their disposal in DPAS. We found documents signed by an MZM employee for
32 laptops that were turned in to the DRMO without being removed from DPAS
records.

If DSS had performed proper planning before writing the statement of work and had
taken into consideration the importance of removing laptops from DPAS records, it
would have fewer unaccounted-for laptops. In addition, if DSS had performed adequate
oversight of the contract with MZM, DSS might have become aware of MZM shipping
laptops to the DRMO without making the appropriate entries in DPAS. DSS then might
have been able to take corrective actions to maintain accountability.

Maintaining Accurate Records. DoD Instruction 5000.64 requires accountability and
transaction trails throughout an asset’s life cycle. The Instruction requires DoD
Components to maintain accounting records of property lent to other Federal agencies,
such as the laptops that DSS provided to OPM for the transfer of the PSI function.

        Use of DPAS. DSS did not comply with DoD Instruction 5000.64 by not
keeping accountable records of laptops provided temporarily to OPM, or keeping a
transaction trail throughout the life cycle of the laptops, from acquisition to disposal. As
a result, DSS, OPM, and the DoD IG audit team had to search through hundreds of
DRMO documents and conduct searches of field offices to locate 308 of the 501 laptops.

         DPAS is a DoD-wide property accountability system designed to track assets
throughout their life cycle. DPAS provides an audit trail in accordance with DoD
Instruction 5000.64, which requires that data elements such as unique identifiers be
included in the property system of record. DPAS allows users to process accountable
records by documenting receipts and turn-ins and tracking inventory. DSS lacked
accurate records for the laptops because DSS did not consistently use DPAS to account
for its laptops. Instead, DSS used a combination of DPAS and electronic spreadsheets.
DSS used the electronic spreadsheets after its property book officer transferred to OPM,
leaving no one with a working knowledge of DPAS. The electronic spreadsheets were
not designed to capture information necessary to provide an audit trail, such as the
specific person responsible for the laptop or the actual location of the laptop. For
example, of the 308 laptops located, 41 were located at DSS headquarters but were
initially listed as unaccounted for because entries for them were not in DPAS but on
separate electronic spreadsheets.

        Use of Unique Identifiers. According to the DSS Deputy Director, DoD
Instruction 5000.64 does not explicitly require that laptops be tracked by a unique
identifier. He is correct that DoD Instruction 5000.64 is not specific about laptops;
however, it does state that items that are sensitive should be tracked by unique identifier.
And because the Defense Privacy Office considers PII sensitive information, to be
cautious, laptops should be tracked using a unique identifier. In fact, to clarify any
misinterpretation that DoD Components may have regarding tracking laptops by unique
identifier, the audit team met with a property accountability specialist in the Office of
the USD(AT&L) and discussed clarifying DoD Instruction 5000.64 by explicitly stating
that laptops must be tracked by unique identifier. The author of guidance in
USD(AT&L) was agreeable to clarifying the guidance.



                                        17
       DSS turned in at least 122 laptops to the DRMO that could not be identified by
unique identifier, in part because USD(AT&L) guidance did not require DoD
Components to include unique identifiers on DRMO turn-in documents. Consequently,
DSS did not always include unique identifiers on laptops they turned in to the DRMO.
For example, one of the DRMO turn-in documents included 78 laptops without listing
unique identifiers. Had USD(AT&L) required DSS to include unique identifiers on
DRMO turn-in documents, DSS may have been able to provide clearer evidence that it
disposed of the laptops through the DRMO.

        Clarifying Guidance. Over the past 5 years, incidents involving the potential
compromise of PII on laptops have become more prevalent in the Federal Government.
For example, in 2002 the Federal Bureau of Investigation lost 317 laptops, resulting in a
PII breach. In 2006, the Department of Veterans Affairs reported a breach of
information related to a stolen laptop that contained PII on over 26.5 million veterans.
According to the Department of Veterans Affairs, the cost of the breach could be as
much as $500 million. As a result, it is imperative that DoD Components provide
electronic protection and physical accountability, and know how to respond to a breach
of PII. To address these issues, multiple DoD offices have issued clarifying policies.
The ASD(NII)/CIO, USD(AT&L), and the OSD Director of Administration and
Management have issued the following guidance on the electronic security, physical
security, and notification of breaches of PII.

       •   On July 3, 2007, the ASD(NII)/CIO issued “Encryption of Sensitive
           Unclassified Data at Rest on Mobile Computing Devices and Removable
           Storage Media Used Within DoD,” which addresses encryption of sensitive
           information on mobile computing devices such as laptops.

       •   On November 2, 2006, USD(AT&L) issued DoD Instruction 5000.64,
           “Accountability and Management of DoD-Owned Equipment and Other
           Accountable Property,” which addresses accountability for DoD-owned
           equipment.
       •   On September 21, 2007, the OSD Director of Administration and
           Management issued the memorandum, “Safeguarding Against and
           Responding to the Breach of Personally Identifiable Information,” which
           addresses reporting breaches of PII.
       To provide a seamless source of instruction on how to protect PII on mobile
computing devices such as laptops, the ASD(NII)/CIO, the USD(AT&L), and the
Director of the Defense Privacy Office met on August 29, 2007, to discuss the issuance
of a memorandum to direct DoD managers to the proper guidance that will address all
aspects of protecting sensitive and classified information on mobile computing devices.
The Director of the Defense Privacy Office verbally agreed to take the lead on
developing the guidance. However, a specific deadline for issuance of the guidance has
not been established.

        Current DSS Inventory. Current DSS management inherited inaccurate
inventory records from previous management. However, at the time of this audit,
current DSS management had not fully implemented planned improvements to inventory
accountability. Based on a review of a sample of DSS inventory records, we determined
the records remained inaccurate. Specifically, of the 50 DPAS employee custodial


                                       18
           records we reviewed, only 23 were accurate. The book-to-floor and floor-to-book
           inventory review performed by the audit team identified inventory items assigned to
           DSS employees that DSS could not locate. In addition, the audit team identified assets
           in the possession of DSS employees that DSS did not list in DPAS. Because of the
           long-standing inaccuracies in the DSS inventories, the reliability of the totals of
           unaccounted-for laptops and other assets remains in question.

                   Current DSS management recognizes that the agency’s inventory records are not
           accurate and reported this as a weakness in the DSS “Memorandum for the Secretary of
           Defense FY 2007 Annual Statement Required Under the Federal Managers’ Financial
           Integrity Act of 1982,” August 20, 2007. Current DSS management listed the following
           objectives to improve accountability for agency assets.

                    •   Finalize and implement DSS policy and procedures for all categories of
                        plant, property, and equipment in first quarter of FY 2008.

                    •   Complete inventory of DoD property held by OPM and update DPAS in first
                        quarter of FY 2008.

                    •   Complete inventory of all items classified as sensitive property and ensure
                        items are properly accounted for in DPAS in accordance with DSS policy in
                        second quarter of FY 2008.

                    •   Certify DSS inventory of sensitive property in DPAS in third quarter of
                        FY 2008.

                    •   Verify that supporting documentation for reviews and inventories is
                        generated and maintained in accordance with policy in third quarter of
                        FY 2008.


Risk of Compromised PII
           Accountability for assets such as CACs, safes, laptops, and auxiliary hard drives that
           contain PII is critical to reduce the risk that those assets can be compromised and the
           information used inappropriately. During the transfer of the PSI function from DSS to
           OPM in February 2005, DSS management did not define the parameters for transferring
           the assets to OPM along with 1,567 former DSS staff members. And during the transfer,
           DSS did not take the necessary steps to accurately account for the assets. DSS
           management since the transfer has not completed steps to improve asset accountability.
           As a result, at the outset of this audit, DSS could not account for at least 55 CACs, 15
           501 laptops, and an undetermined number of safes and auxiliary hard drives. Since then
           DSS has been able to resolve the 55 CACs, show evidence that the 501 laptops had not
           left Government control, and perform significant due diligence to resolve accountability
           issues related to unaccounted-for safes.



15
      In February 2008 DSS determined that OPM issued 7 of the 55 CACs to former DSS employees after they
     transferred to OPM.



                                                        19
           Laptops. Although at the beginning of the audit DSS could not locate 501 laptops, the
           efforts of DSS, OPM, and the DoD IG resulted in physically locating 308 laptops, and
           accounting for the remaining 193 by other means as of May 2008. DSS management in
           place during the transfer created a lack of accountability for assets, posing an undue risk
           of compromising PII for military, civilian, and contractor employees investigated for
           personnel security clearances between 1997 and 2005. To date, no evidence has come to
           light to indicate that the laptops have left the Government or that PII has been
           compromised. Still, the potential for compromise occurred. For example, in October
           2007 DSS located 14 laptops in a secured, caged area of a commercial storage facility in
           California used by MZM while closing DSS field offices. However, neither DSS nor
           MZM had paid the monthly storage fees in over a year, and DSS has no proof that those
           14 were the only laptops placed in the storage facility. It is unclear whether DSS has
           had full control over all its laptops and the PII contained on them.

           Of further concern is the extent of PII maintained on the laptops. The audit team
           performed a forensic review on a sample of the recovered laptops. We determined that
           data contained on the hard drives was easily accessible without a password. Based on a
           limited review of 33 recovered hard drives, the audit team found PII ranging from as
           early as 1997 to as late as 2005. Although the DoD IG audit team found no evidence of
           compromised PII, the lack of accountability caused by DSS management in place during
           the transfer posed a risk of compromising PII of military, civilian, and contractor
           employees. However, continued efforts by DSS current management have shown the
           remaining unaccounted-for laptops have not left the Government, reducing the risk of
           compromise of PII on those devices to low or none.

           CACs. In February 2005, DSS allowed 55 DSS employees to leave DoD without
           collecting and deactivating the employees’ CACs. However, in July 2006, once made
           aware of the issue, DSS did take steps to have DMDC deactivate all 55 CACs. DSS and
           DMDC took steps to deactivate all 55 outstanding CACs, of which DSS and OPM
           collected 48. The remaining seven CACs were issued to former DSS employees after
           they had left DSS and therefore are OPM’s responsibility to collect.
           Safes. According to the DSS Chief of Security, DSS could not determine the number of
           safes transferred to OPM. However, the OPM Chief of Field Support Services certified
           that OPM received 23 safes and that the safes did not contain any DoD sensitive or
           classified information while they were in the possession of OPM.
           To determine the accuracy of the current inventory of DSS safes, we performed a review
           at DSS headquarters and DSS field offices. 16 Although DSS could not determine the
           number of safes it transferred to OPM, the DSS inventory records at the time of our
           review matched the physical inventory at headquarters in Alexandria, Virginia, and at
           field offices in Chantilly, Virginia; Huntington Beach, Pasadena,
           San Diego, and Sunnyvale, California; and Linthicum, Maryland. The Chief of Security
           has ultimate responsibility for safes at DSS and is working with the DSS property book
           officer to update DPAS records to include a DSS-wide inventory of safes.

           Internal Controls Over DSS Assets. DSS continues to experience difficulties in
           accounting for assets that were not part of the transfer to OPM. Specifically, only

16
      The DoD IG inventory review of safes was performed separately from the DoD IG inventory review of laptops
     and desktops in DPAS.



                                                        20
    46 percent of DPAS records of laptops and desktops we reviewed were accurate. DSS
    must improve controls over and accountability for assets currently in its possession.
    Although it is clear that DSS inherited inaccurate accounting records, DSS is responsible
    for putting controls in place that will help ensure property accountability.


Actions Taken by DSS
    Current DSS management has worked diligently to account for the unaccounted-for
    assets, particularly the laptops that potentially contained PII. Through joint efforts,
    308 of an estimated 501 laptops have been located and confirmed by unique identifier.
    DSS has obtained evidence that the remaining 193 laptops have remained in
    Government control. Although some risk exists because the initial baseline of
    501 laptops was not accurate, DSS has worked with Defense Privacy Office and
    US-CERT officials, who have concluded that because of DSS continued efforts, the risk
    of unauthorized disclosure of PII is not high enough to warrant a public notification of a
    breach of PII. In addition, DSS demonstrated that as of February 2007 all 55 CACs had
    been deactivated, and as of February 2007, the remaining CACs that were the
    responsibility of DSS had been physically collected.

    Current DSS management inherited a property accountability process that lacked
    adequate internal controls. We commend DSS management for taking steps to improve
    controls over property accountability. Specifically, in spring 2007, DSS began
    reconciling DPAS records and issuing hand receipts for DSS assets including laptops.
    In addition, the property book officer wrote new draft guidance that requires DSS to
    perform a physical inventory every year. This requirement is more stringent than DoD
    Instruction 5000.64, which requires DoD Components to perform a physical inventory
    every 3 years. DSS began performing an inventory review in August 2007, and
    managers continued to gather information through May 2008. They showed with
    reasonable certainty that the remaining unaccounted-for laptops have not left the control
    of the Government and that the risk of unauthorized disclosure of PII is reduced.

    In response to the draft report, the Director stated DSS management continued to
    improve inventory records at DSS by conducting regular inventories that included a
    100-percent inventory between March and December 2007. The Director also stated
    DSS implemented new procedures for procuring, receiving, and accounting for property.
    The procedures include capturing all information technology equipment in DPAS. The
    Director further stated she added a team leader and five support staff to DSS Support
    Services, the office responsible for keeping accurate property records. In addition, DSS
    management is preparing an operating instruction that will accompany DSS
    Regulation 15-2, “Property Management.”




                                            21
Management Comments on the Finding and Audit Response
  Please see Appendix D for management comments and audit responses on the finding.


Recommendations, Management Comments, and Audit
  Response
  Revised, Deleted, and Renumbered Recommendations. As a result of new evidence
  provided by DSS management that showed the remaining 7 of the 501 initially
  unaccounted for laptops had not left the control of the Government; and the remaining
  7 unaccounted for common access cards were issued to former DSS employees after
  they left DSS, we have deleted draft Recommendations 1.f.,1.g.,1.h. In addition, based
  on mitigating risk factors related to potential unaccounted for safes we removed
  recommendation 1.i. and renumbered the other parts of Recommendation 1. accordingly.
  We also revised Recommendation 3. to clarify its intent.

  1. We recommend that the Director, Defense Security Service assign appropriate
  personnel to:

      a. Maintain an audit trail showing all transactions from acquisition to disposal
  for assets that contain sensitive or classified information in accordance with DoD
  Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
  and Other Accountable Property,” November 2, 2006.

  Management Comments. The Director, Defense Security Service concurred and
  explained that the DSS Property Management Regulation became effective on
  February 8, 2008. The regulation assigns responsibilities at all levels for the
  management and accountability of DSS assets throughout each asset’s life cycle. In
  addition, DSS management is developing Property Management Operating Instructions
  that further define processes and procedures for accountability and management of DSS
  property, plant, and equipment. The Director expects to publish the operating
  instructions in the third quarter of FY 2008. Finally, the Director stated that on March
  31, 2008, she had detailed a full-time employee to help integrate the Chief Information
  Officer inventory spreadsheet into DPAS and provide guidance to the Chief Information
  Officer for the life-cycle management of and accountability for information technology
  assets.

  Audit Response. The Director, Defense Security Service comments were responsive.
  Developing and implementing the DSS Property Management Regulation and Operating
  Instructions, combined with conducting physical inventories as discussed in
  Recommendation 1.b., will help DSS maintain an audit trail in accordance with DoD
  Instruction 5000.64. No additional comments are needed.

     b. Conduct a periodic physical inventory of laptops and other assets that
  contain personally identifiable information.

  Management Comments. The Director, Defense Security Service concurred and
  explained that, in addition to requiring a 100-percent physical inventory of all DSS


                                         22
   property, plant, and equipment, DSS will also perform random spot inventories,
   verifying hand receipts and physical equipment. DSS management is seeking vendors
   that conduct physical inventory services and plans to have the first inventory
   reconciliation completed and property books transferred to a new property book officer
   in the first quarter of FY 2009.

   Audit Response. The Director, Defense Security Service comments were responsive.
   The actions taken and planned meet the intent of the recommendation, and no additional
   comments are needed.

      c. Track assets that contain personally identifiable information using a unique
   identifier, such as a serial number or bar code.

   Management Comments. The Director, Defense Security Service concurred and plans
   to track all assets that could contain PII by using a serial number and barcode in DPAS
   throughout the assets’ life cycle.

   Audit Response. The Director, Defense Security Service comments were responsive.
   The actions taken by the Director meet the intent of the recommendation, and no
   additional comments are needed.

       d. Report any future confirmed or unconfirmed instances of unauthorized
   disclosure of personally identifiable information to U.S. Computer Emergency
   Readiness Team and the Defense Privacy Office in accordance with Office of
   Management and Budget memorandum M-06-19, “Reporting Incidents Involving
   Personally Identifiable Information and Incorporating the Cost for Security in
   Agency Information Technology Investments,” July 12, 2006, and with DoD
   Directive 5400.11-R, “DoD Privacy Program,” May 14, 2007.

   Management Comments. The Director, Defense Security Service concurred, stating
   DSS would continue to comply with Office of Management and Budget and DoD
   requirements for potential breach or compromise of PII.
   Audit Response. The Director, Defense Security Service comments were responsive,
   and no additional comments are needed.
      e. Establish guidelines and training that DSS employees must follow to protect
   personally identifiable information from unauthorized disclosure.

   Management Comments. The Director, Defense Security Service concurred, stating
   DSS would create PII protection training and make it part of the DSS New Employee
   Orientation Program. DSS will also include protection of PII as an annual training
   requirement. DSS expects to have the first training iteration ready by June 30, 2008.

   Audit Response. The Director, Defense Security Service comments were responsive.
   The actions taken by DSS meet the intent of the recommendation, and no additional
   comments are needed.

   f. Issue guidance that requires Defense Security Service to perform a physical
inventory every year in compliance with DoD Instruction 5000.64.



                                          23
Management Comments. The Director, Defense Security Service concurred. She
stated that DSS Regulation 15-2, “Property Management,” took effect on February 8,
2008. She said the guidance would be supplemented with more specific processes and
procedures in the near future.

Audit Response. The Director, Defense Security Service comments on the
recommendation were responsive. The actions taken and planned by DSS meet the
intent of the recommendation, and no additional comments are needed.

2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

    a. Add clarifying language to DoD Instruction 5000.64 stating that the policy
applies to mobile computing devices, including but not limited to laptops, mobile
information storage devices, and auxiliary hard drives, regardless of dollar
thresholds.

Management Comments. The Director, Acquisition Resources and Analysis,
responding for the Under Secretary of Defense for Acquisition, Technology, and
Logistics, concurred. She stated that DoD Instruction 5000.64 will be revised to clarify
property accountability and management guidance for information technology property
items that contain personally identifiable information.

Audit Response. Management comments were responsive, and no additional comments
are needed.

   b. Require that all DoD Components include unique identifiers on Defense
Reutilization and Marketing Office turn-in documents when disposing of laptops
and other electronic devices that may contain personally identifiable information.

Management Comments. The Director, Acquisition Resources and Analysis,
responding for the Under Secretary of Defense for Acquisition, Technology, and
Logistics, partially concurred. She stated that they agree with the objective and intent of
the recommendation. However, she suggested that guidance in two documents not
captured in the report may eliminate the need for the recommendation. The documents
are:

       •   Deputy Secretary of Defense Directive Memorandum, “Disposition of
           Unclassified DoD Computer Hard Drives,” May 29, 2001; and

       •   Assistant Secretary of Defense for Command, Control and Communications
           Memorandum, “Disposition of Unclassified DoD Computer Hard Drives,”
           June 4, 2001.
These two memoranda require that all hard drives of unclassified computer equipment
leaving the custody of DoD be sanitized and certified that the sanitization process
occurred.

Audit Response. Management comments were not responsive. Although the two
memoranda listed above address the removal of information from hard drives and the
destruction of hard drives, the memoranda do not address accountability for DoD


                                        24
laptops as they are turned in to the DRMO for disposition. Therefore, the two
memoranda do not meet the intent of the recommendation.

Requiring DoD Components to list unique identifiers (serial numbers) on DRMO turn-in
documents would complete the transaction trail, showing evidence the laptop was
properly disposed of. Conversely, not listing laptops by unique identifier on the DRMO
turn-in document makes it impossible to document that specific laptops were turned in
to the DRMO. For example, DSS and the DoDIG audit team reviewed turn-in
documents showing 65 laptops were disposed of at DRMO locations. However, DSS
could not clearly determine whether the laptops were part of the 501 unaccounted-for
laptops because the DRMO turn-in documents lacked a unique identifier. We request
that the Under Secretary of Defense for Acquisition, Technology, and Logistics
reconsider his position on Recommendation 2.b. and provide additional comments in
response to the final report.

3. We recommend that the Director of the Defense Privacy Office continue working
with the Office of the Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer and the Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics to issue a memorandum to all
DoD managers identifying all guidance pertaining to protecting personally
identifiable information, responding to breaches of personally identifiable
information, and accounting for assets.

Management Comments. The Senior Agency Official for Privacy did not concur with
the draft recommendation that the Defense Privacy Office continue working with the
Office of the Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer and the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics to develop overarching guidance on
the protection of PII on mobile computing devices because such guidance would only
confuse them.

Audit Response. Based on management comments, we revised the draft
recommendation to develop overarching guidance. The intent of the recommendation
was not to reissue or rewrite or even summarize existing guidance, but to tell DoD
managers which guidance they should follow when protecting PII, accounting for assets
that are sensitive, and reporting a potential breach of PII. The purpose of the
memorandum is to have one document that directs DoD managers to all the proper
guidance for electronic protection, accountability, and reporting of breaches—guidance
that has been written by different DoD Components. The memorandum would help
ensure that DoD managers are aware of and follow all the proper guidance and
procedures when handling PII and sensitive assets. We request that the Director of the
Defense Privacy Office respond to the revised recommendation in comments on the final
report.




                                      25
Appendix A. Scope and Methodology
   We conducted this performance audit from November 2006 through May 2008 in
   accordance with generally accepted government auditing standards. These standards
   require that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe that the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objectives.

   We reviewed DSS controls over assets that contain sensitive personal data or PII. For
   purposes of this audit, assets included laptops, hard drives, CACs, and safes. We
   interviewed DSS and OPM personnel involved with the transfer of the PSI function to
   OPM to determine the procedures they used to account for laptops, hard drives, CACs,
   and safes transferred. We exhausted all leads stemming from these interviews in our
   search to account for the unaccounted-for laptops, CACs, and safes. Additionally, we
   performed a book-to-floor-inventory and floor-to-book-inventory to evaluate the
   reliability of DSS records of current assets.

   Laptops. We interviewed the former DSS Chief of Support Services, former Improsive
   personnel, the former DSS Assistant to the former Acting Director, the DSS Supply
   Management Specialist, the former DSS Property Manager, and former DSS Acting
   Directors to find out what happened to the laptops during the PSI function transfer. We
   reviewed documentation from DSS and OPM personnel to determine possible locations
   of laptops. We reviewed turn-in documents to identify those laptops transferred to other
   agencies. We coordinated with the OPM Deputy Associate Director to obtain
   certifications from DSS employees who became OPM employees as to the status of their
   laptops. We reviewed the certifications to determine the last known individual and /or
   location associated with each laptop and followed each piece of information until we
   exhausted all leads.

   To search for unaccounted-for laptops, we conducted site visits to DSS offices in
   Alexandria and Chantilly, Virginia; Smyrna, Georgia; Huntington Beach, Pasadena, San
   Diego, and Sunnyvale, California; Columbus, Ohio; and Linthicum, Maryland. We also
   coordinated with the OPM Chief of Internal Audits Group to visit OPM locations in
   Boyers, Pennsylvania; Long Beach, California; Ft. Meade, Maryland; Smyrna, Georgia;
   St. Louis, Missouri; and Virginia Beach, Virginia.

   We coordinated with the Defense Criminal Investigative Service to search pawn shops
   in cities identified as having the most unaccounted-for laptops. Investigators searched
   pawn shops in the District of Columbia metropolitan area and in Maryland, Texas,
   California, Florida, and Virginia.

   We judgmentally selected a sample of 33 hard drives pulled from located laptops that
   were originally included in the 501 unaccounted-for computers. The DoD IG Defense
   Criminal Investigation Service performed a forensics review of the 33 hard drives to
   determine whether they contained PII. Seventeen of the thirty-three hard drives did
   contain PII.




                                           26
CACs. We interviewed the DSS Chief of Security to determine the procedures used to
account for, collect, and terminate the CACs issued to PSI agents who transferred to
OPM. We verified the information with DMDC and the OPM Chief of Field Support.

Safes. We interviewed the DSS Chief of Support Services, the DSS Chief of Security,
and the OPM Federal Investigative Services Program Manager to account for safes
transferred from DSS to OPM and to determine what controls DSS has in place over
safes.

Policy. We reviewed DoD policies, regulations, and guidance applicable to property
accountability and the safeguarding of assets and sensitive information. We interviewed
officials from ASD(NII)/CIO, Department of Homeland Security, USD(AT&L) and the
DoD Privacy Office to determine additional criteria applicable to property
accountability, security of assets, and incident reporting.

Use of Computer-Processed Data. We used computer-processed data from DPAS to
identify the 501 laptops that DSS could not account for. Our review of DPAS records
indicated that property records in DPAS were not always accurate; therefore, we cannot
be certain that 501 is the correct number of unaccounted-for laptops at DSS. We used
computer-processed data from the Defense Enrollment Eligibility Reporting System to
identify the CACs that DSS could not account for. We did not assess the reliability of
the data from the Defense Enrollment Eligibility Reporting System, but have no reason
to suspect that the data are inaccurate.

Scope Limitation. We obtained information from DSS that indicated as many as
193 laptops that were other than physically accounted for were not at risk of
unauthorized disclosure. Although we documented the DSS methodology for obtaining
the information, because we obtained the information after we completed our
fieldwork, we did not verify all of the supporting data.

Use of Technical Assistance. We obtained assistance from our Quantitative Methods
Division in selecting a sample of DPAS records to assess the accuracy of the DSS
property inventory.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in the Department of
Defense. This report provides coverage of the business transformation high-risk area
specifically, the security clearance program and contract management.




                                      27
Appendix B. Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and DoD IG have
      issued 7 reports related to adequate controls and accountability to secure assets that
      contain sensitive personal information. Unrestricted GAO reports can be accessed over
      the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-06-1070, “DoD Personnel Clearances: Additional OMB Actions
      Are Needed to Improve the Security Clearances Process,” September 2006
      GAO Report No. GAO-06-706, “Managing Sensitive Information: DoD Can More
      Effectively Reduce the Risk of Classified Errors,” June 2006

      GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

DoD IG
      DoD IG Report No. D-2003-112, “Contracting Practices of the Defense Security Service
      for Personnel Security Investigations,” June 27, 2003 (For Official Use Only)

      DoD IG Report No. D-2003-066, “Information System Security Controls Over the Use
      and Protection of Social Security Numbers Within DoD,” March 21, 2003

      DoD IG Report No. D-2003-036, “Supply Inventory Management Property
      Accountability at Research, Test, and Evaluation Installations,” December 16, 2002
      DoD IG Report No. D-2002-138, “Security Allegations Concerning the Management
      and Business Practices of the Defense Security Service,” August 9, 2002




                                            28
Appendix C. Review of Defense Property
            Accountability System Records
At the outset of the audit, DSS officials informed the audit team that they could not
account for 501 laptops out of a universe of 2,826, of which 1,483 were transferred to
OPM and used for PSIs. According to DPAS records, DSS could not account for
501 laptops, leaving 2,325 accounted for. To check for accuracy, the audit team
randomly sampled 50 DPAS records. We ran a floor-to-book and book-to-floor review
to see whether the information technology items (including laptops and desktops) listed
for the individuals in DPAS records matched the items that those individuals
maintained in their custody.

Only 23 of the 50 (46 percent) records in DPAS matched with what DSS personnel had
in their possession. Included in the 50 DPAS records we reviewed were 7 of the
2,325 laptops that DSS should be able to account for. However, DSS accurately
recorded only five of the seven laptops in DPAS. Specifically, two laptops were
located on the floor but were not accurately listed in DPAS.

Because of the inaccuracies found in DPAS, we cannot be certain that 501 is the total
unaccounted-for DSS laptop inventory.




                                      29
Appendix D. Management Comments on
            the Finding and Audit Response
           The Director, Defense Security Service provided comments on the finding that
           addressed accountability of laptops, CACs, and safes. 17

           Laptops
           The Director, Defense Security Service provided comments on the following:

                   •    compliance with DoD Instruction 5000.64,
                   •    accounting for DSS laptops,
                   •    risk associated with unaccounted-for laptops, and
                   •    public notification.
           Management Comments on Compliance With DoD Instruction 5000.64. The
           Director, Defense Security Service stated that the audit team is holding DSS to a higher
           standard than the rest of DoD by requiring serial number accountability. The Director,
           Defense Security Service pointed out that DoD Instruction 5000.64 states:
           Accountable property records shall be established for all property purchased, or
           otherwise obtained, having a unit acquisition cost of $5,000 or more; leased assets
           (capital assets) of any value; and assets that are sensitive or classified.

           DoD Instruction 5000.64 references DoD Manual 4100.39-M, Volume 10, Table 61
           (Reference (k)), which lists examples of sensitive items—such as nonnuclear missiles
           and rockets; arms, ammunition, and explosives; drugs and other controlled substances;
           and precious metals—but does not list laptops that contain PII. Furthermore, the
           Director noted, DoD Instruction 5000.64 defines sensitive items as property requiring a
           high degree of protection and control due to statutory requirements or regulations.
           Nowhere in DoD Instruction 5000.64, she stated, is there a requirement that DoD
           Components track information technology equipment or other items containing PII by
           serial number or other unique identifier. The Director stated that not all laptops in DSS
           or DoD contain PII; therefore, not all laptops should be required to be tracked by unique
           identifier.

           Audit Response. Officials from the Office of the USD(AT&L) stated that the intent of
           DoD Instruction 5000.64 is that DoD managers should consider their specific
           circumstances and use prudent judgment in determining what assets they should account
           for by unique identifier. Because 249 of the 501 initially unaccounted-for laptops at
           DSS were used for PSI investigations and may have contained PII, DSS managers
           should have accounted for these assets in a manner that would allow them to determine
           from their property records where each laptop is, and who is responsible for it at all
           times. Without accounting for laptops by unique identifier, it is extremely difficult for
           management to determine what laptops are missing and what laptops are accounted for.
17
     We considered the comments made by the Director on the finding discussion and made appropriate adjustments.



                                                        30
            For example, DSS management spent approximately 3 years and significant resources to
            account for laptops and demonstrate they had not left the control of the Government. If
            DSS had implemented controls including accounting for laptops using unique identifiers
            during the transfer, DSS management could have tracked down the 501 initially
            unaccounted-for laptops faster and with fewer resources. The Director made the point
            that not all laptops at DSS contain PII; therefore, DSS should not have to account for all
            its laptops by unique identifier. However, because DSS lacked controls to demarcate
            which laptops contained PII, and any laptops can contain PII, DSS should account for all
            its laptops by unique identifier.

            Furthermore, both the 2002 version of DoD Instruction 5000.64, paragraph 5.3.1.1, and
            the 2006 version, paragraph 6.3, state:
                     Although the Department of Defense may not have physical custody, to
                     maintain effective property accountability and control and for financial
                     reporting purposes, DoD components shall establish records and maintain
                     accountability for property (of any value) furnished to contractors as
                     Government Furnished Property. This requirement includes property that is
                     loaned and/or otherwise provided to outside entities such as Federal agencies,
                     State and local governments, and foreign governments.

            To maintain this accountability, the 2002 version 18 specifically lists data elements
            applicable to property accountability records and systems in paragraph 5.3.3.8 to be
            “part number, National Stock Number, serial number, bar codes, or other unique
            identifiers.” The audit team used serial numbers as the unique identifier to account for
            laptops because we found from reviewing the DSS DPAS inventory records that serial
            numbers were the only consistent unique identifier used by DSS. Therefore, the audit
            team was not holding DSS to a higher standard, but used what DSS records had
            available to clearly identify the unaccounted-for laptops. The overall purpose was to
            physically verify the specific missing devices, and serial number, of all unique
            identifiers, was found to be the best data element in this case.

            Management Comments on Accounting for DSS Laptops. The Director stated that
            the audit team mischaracterized the accountability standard of unique identifier by
            identifying 193 laptops as not fully accounted for. The Director further stated the audit
            team considered laptops fully accounted for only when the team obtained a scanned
            copy of the back of the laptop, a DD Form 1348-1 with a serial number, or a DA Form
            3161 with a serial number. The Director pointed out that the draft audit report
            acknowledged that DSS further accounted for 186 of the remaining 193 laptops. The
            Director noted that DSS was able to coordinate with OPM and use a “new investigative
            methodology” to account for the remaining seven previously unaccounted-for laptops.

            The Director stated that, prior to receiving the draft report, DSS had accounted for 186
            of the 193 laptops using a “naturally progressive investigation.” Although DSS initially
            attempted to meet the standard set by the DoD IG by accepting only scanned copies of
            the laptops, DD forms 1348-1A, and DA forms 3161 as serial number identification,
            DSS management finally used a standard of “reasonable degree of certainty” to


18
      The 2002 version of DoD Instruction 5000.64 was the version applicable during the transfer of the PSI function
     from DSS to OPM, which occurred in February 2005.



                                                          31
demonstrate that the PII contained on the laptops was properly disposed of or
safeguarded.

Finally, the Director noted that DSS had been able to account for the remaining 7 of the
501 initially unaccounted-for laptops after the audit team issued the draft report. DSS
staff accounted for the remaining laptops by comparing the laptop serial numbers
entered on DRMO turn-in documents with the serial numbers entered in DPAS. DSS
found that seven of the serial numbers listed on the turn-in documents were never
entered in DPAS. Additional analysis showed that the seven laptops were each one digit
off from the seven remaining unaccounted-for laptops listed in the property records.
The Director concluded that the difference in the serial numbers may have been caused
by data entry errors, which have since been corrected; therefore, DSS has accounted for
the previously unaccounted-for laptops.

 Audit Response. The audit team did not mischaracterize DoD Instruction 5000.64.
The intent of the Instruction is that DoD managers should assess their specific
circumstances and use prudent judgment in determining what assets they should account
for using an unique identifier. Considering that 249 of the previously unaccounted-for
DSS laptops potentially contained PII including financial, medical, and other personal
information of military and civilian employees who were investigated for personnel
security clearances between 1997 and 2005, prudent management should have
accounted for these laptops in a manner that would allow it to verify the location and
existence of each laptop. Accurate property records that use unique identifiers to track
laptops enable management to have that level of control over the property accountability
of laptops.

The Director’s assessment of how the audit team determined a laptop was fully
accounted for was not completely accurate. The audit team determined the laptop was
fully accounted for if DSS could verify the existence of the laptop or could fully confirm
its disposal. Because of the sensitive nature of PII on the laptops, the audit team
differentiated between laptops that were fully accounted for and laptops that could be
accounted for by a standard of reasonable certainty. We determined laptops were fully
accounted for if we could physically locate them or verify documentation of their
disposal through a DoD turn-in document. The auditors documented the existence of the
laptops by scanning the unique identifier (serial number or barcode) on the back of the
laptop, or documenting the disposal of the laptop by obtaining a copy of the DoD turn-in
document and verifying the unique identifier listed on the document. The audit team
considered unique identifiers other than serial numbers; however, at DSS, serial
numbers were used because DSS had not consistently used any other unique identifier
for the laptops. The audit team acknowledged in the audit report that DSS was able to
account for the remaining 193 unaccounted-for laptops using a reasonable degree of
certainty.

We reviewed the methodology DSS used to account for the remaining 7 of the 501
unaccounted-for laptops and obtained supporting documentation. We agree with the
DSS conclusion that the remaining seven unaccounted-for laptops may be attributed to
data entry errors. Therefore, we have deleted the draft recommendations for DSS to
continue working with OPM to locate the remaining unaccounted-for laptops and to
implement steps to mitigate the risk of unauthorized disclosure of the personally
identifiable information stored on those laptops.



                                       32
Management Comments on Risk Associated With Unaccounted-for Laptops.
According to the Director, DSS management has been able to show with a reasonable
degree of certainty that the risk of unauthorized disclosure of PII is low to nonexistent.
The Director emphasized that neither DoD IG audit team nor DSS investigators found
any evidence of theft or malicious intent regarding the unaccounted-for laptops. In
addition, the Director stated that DSS had properly disposed of more than 5,600 hard
drives and more than 1,800 laptops in accordance with DoD regulations. Further, the
Director stated that, of the 33 hard drives the audit team reviewed, only 17 contained
PII, and many of those hard drives contained PII of DSS agents, not the PII of the
subjects of security clearance investigations.

Audit Response. While we do not dispute that there has been no indication of theft or
malicious intent regarding the unaccounted-for laptops, or that DSS has properly
disposed of thousands of laptops and hard drives, some risk still exists because the
initial baseline of 501 laptops was not accurate. As a result, additional unaccounted-for
laptops may still exist. We also do not dispute that DSS followed National Security
Agency guidance or that DSS reviewed internal procedures for reformatting, storing,
and disposing of hard drives. However, we disagree that the risk is eliminated because
much of the PII on the hard drives tested belonged to DSS agents rather than to the
subjects of security investigations. PII of DSS agents requires the same level of
protection as that of the subjects they are investigating.

Management Comments on Determination of Public Notification. The
Director, Defense Security Service determined public notification was not
necessary in accordance with DoD Regulation 5400.11-R, “Department of
Defense Privacy Program,” May 14, 2007, and the Director of Administration
and Management Memorandum, “Safeguarding Against and Responding to the
Breach of Personally Identifiable Information,” September 21, 2007.
Specifically, DSS considered a two-part test, which included assessing (1) the
likely risk of harm and (2) the relative likelihood of the risk occurring. In
determining the likely risk of harm, DSS considered the following five factors
in accordance with the memorandum:

       • the nature of the data elements breached,
       • the number of individuals affected,
       • the likelihood that the information is assessable and usable,
       • the likelihood that the breach may lead to harm, and
       • the agency’s ability to mitigate the risk of harm.
According to the Director, Defense Security Service, when determining whether
notification was necessary, she took into consideration not only the five factors but also
that there was no evidence that any of the laptops were stolen or outside control of the
Government. Furthermore, the Director considered that, ultimately, DSS would be able
to account for the remaining unaccounted-for laptops. The Director, Defense Security
Service informed the Defense Privacy Office of its determination in a memorandum
dated January 15, 2008. The Defense Privacy Office agreed with the DSS
determination.



                                        33
Audit Response. We agree that the Director, Defense Security Service, working with
the Defense Privacy Office, made the determination that public notification was not
warranted. The Defense Privacy Office has the authority to work with DoD
Components to make the decision on public notification.

CACs
Management Comments on CACs. The Director, Defense Security Service stated the
DSS Security Office began reconciling DoD CACs in July 2006. The Director further
stated that OPM issued the seven remaining outstanding CACs after the employees
transferred to OPM. Consequently, DSS is not responsible for retrieving the
outstanding CACs. The Director, Defense Security Service added that OPM has since
obtained six of the seven outstanding CACs and is continuing its efforts to locate the
remaining CAC.

Audit Response. As result of management comments and additional work, we deleted
the draft recommendation on CACs.

Safes
Management Comments on Safes. The Director stated that DSS received a final
accounting of safes from OPM, certifying that DSS transferred 23 safes to OPM. The
OPM certification stated that none of the safes contained sensitive or classified
information and that all the safes were transferred to OPM but remained in place. The
Director also pointed out that DSS and OPM conducted a thorough search and
documented receipt of all known safes. The Director also stated that since the DoD IG
audit, DSS has implemented enhanced control measures to account for safes, including
assigning barcodes and entering information on safes in DPAS.

Audit Response. After further consideration of the due diligence performed by DSS
and other mitigating factors, we determined that no additional action is necessary and
deleted the draft recommendation to receive a final accounting of safes from OPM. We
commend DSS for tagging all safes with unique identifiers in the form of bar codes and
including safes in their official property records.




                                     34
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Intelligence
Assistant Secretary of Defense (Networks and Information Integration)/DoD Chief
   Information Officer
Director, Defense Privacy Office

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, Defense Security Service

Non-Defense Federal Organization
Office of Personnel Management




                                     35
Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                   36
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       37
38
Director of Administration and Management
Comments




                     39
Final Report
 Reference




Revised




               40
Defense Security Service Comments




                     41
42
     Final Report
      Reference




     Revised




43
44
45
46
     Final Report
      Reference




     Revised




47
48
     Final Report
      Reference




     Added




49
50
     Final Report
      Reference




     Deleted




51
Final Report
 Reference




Deleted




Deleted




Deleted




               52
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation 1.f.




     Revised
     Page 1




53
Final Report
 Reference




Revised
second
bullet
third bullet




Revised




Revised




Revised




               54
     Final Report
      Reference




     Revised


     Revised
     Page 26


     Revised
     Page 29




55
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Robert F. Prinzbach II
Kimberley A. Caprio
Patricia A. Papas
Rhonda L. Ragsdale
Robert P. Goldberg
Andrew R. MacAttram
David A. Palmer
Antwan Jackson
Bridgette A. Seebacher
Marlene Cruz-Freire
